          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Special Inquiry
Alleged Wasteful Spending Regarding
International Travel by the Department
of Energy's Deputy Secretary




INS-SR-13-01                        January 2013
                                  Department of Energy
                                    Washington, DC 20585
                                        January 31, 2013


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Inquiry on "Alleged Wasteful Spending
                         Regarding International Travel by the Department of Energy's Deputy
                         Secretary"

BACKGROUND
The Department of Energy's Deputy Secretary represents the U.S. Government, the Department
and the Secretary in many high-level international and ministerial meetings. In this role, the
Deputy Secretary receives executive protection while on international travel for security
purposes, to reduce the risk of harm and aid mission accomplishment. During such travel, the
Deputy Secretary is authorized premium class (first or business class) accommodations, and is
usually accompanied by a special agent with law enforcement authority from the Department's
Office of Special Operations (OSO), a component of the Office of Health, Safety and Security.
During Fiscal Year (FY) 2011 and FY 2012, the Deputy Secretary took 24 international trips
using premium class accommodations.

The Office of Inspector General (OIG) received a complaint that, among several issues, alleged
mismanagement of the Deputy Secretary's travel. Specifically, it was alleged that the Deputy
Secretary "…directed the use of premium class accommodations while on international travel to
maintain business class travel status, resulting in wasteful spending." We initiated this
inspection to examine the facts and circumstances surrounding this allegation.

The other issues contained in the complaint alleged mismanagement within the OSO in a number
of areas unrelated to Secretarial officials. Our review of these allegations remained in process at
the time this report was issued.

CONCLUSIONS AND OBSERVATIONS

The allegation that the Deputy Secretary improperly influenced or directed the use of premium
class accommodations while on international travel was not substantiated.
Our inspection, however, revealed an administrative issue regarding the OSO's maintenance of
documentation prepared to support the need for premium class accommodations. After we
brought this issue to their attention, OSO officials initiated steps to address this issue.

                              Premium Class Travel Authorizations

The complaint alleging that the Deputy Secretary acted improperly regarding the use of premium
travel was not substantiated. We determined that OSO officials issued a June 2009
memorandum authorizing the use of premium class accommodations for the Deputy Secretary
and the accompanying OSO special agents when traveling internationally. The authorization by
OSO was consistent with Title 41 CFR 301-10.123, Federal Travel Regulations, which permits
agencies to authorize premium class travel for "exceptional security circumstances" if the use of
coach-class accommodations would endanger the individual's life or Government property. The
exception also extends to special agents accompanying an individual authorized to use other than
coach-class accommodations.

OSO officials involved in the process of justifying the need for and approving the use of
premium class travel by the Deputy Secretary told us they arrived at their determination
independently, based on a security determination, and had not been pressured or influenced by
anyone. These officials indicated that they were aware of the requirements of Federal Travel
Regulations to justify the need for premium class travel. As such, these officials indicated that
they had made a security determination that security conditions required the use of first class
travel and had prepared the June 2009 memorandum to memorialize the determination and
decision. We confirmed that the June 2009 memorandum referenced a security determination
and also noted that the rationale for the determination was to provide a safer environment and to
prevent unauthorized access to the Deputy Secretary while traveling internationally for official
business.

                               Security Assessment Documentation

Although OSO officials were able to articulate a number of reasons why they had authorized the
use of premium class accommodations, they were unable to furnish documentation to support
their security determination. Taken together, the Federal Travel Regulations and the Standards
for Internal Controls in the Federal Government require each agency or department to make a
security determination, clearly document all transactions and other significant events, and ensure
that the documentation is readily available for examination.

We were told by senior OSO officials that they used a security assessment from the Department's
Office of Intelligence and Counterintelligence (IN), as well as other sources, in developing their
security and safety determination for premium class accommodations. Although supporting
documentation was not available for the 2009 security determination, we confirmed that in
FY 2012, IN completed an intelligence and counterintelligence threat assessment regarding the
Deputy Secretary.

OSO officials told us that they recognized the need to maintain documentation supporting
security determinations and had initiated steps to address this issue. For that reason, we are

                                                 2
making no recommendations in this regard. We do, however, suggest that management closely
monitor its processes to ensure that such determinations are properly supported by security
assessments.


Attachment

cc:   Deputy Secretary
      Chief of Staff
      Chief Financial Officer
      Chief Health, Safety and Security Officer
      General Counsel




                                                  3
                                                                                      Attachment

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine the facts and circumstances surrounding the
allegation that the Deputy Secretary directed the use of premium class accommodations while on
international travel to maintain business class travel status, resulting in wasteful spending.
SCOPE

The allegation-based inspection was performed from October through December 2012 at
Department of Energy Headquarters in Washington, D.C.

METHODOLOGY

To accomplish the inspection objective, we:

     Reviewed applicable regulations, directives, and policies related to Federal travel
      regulations;

     Conducted interviews with Federal and contractor personnel; and

     Reviewed travel documents, including individual travel records, and other relevant
      documentation.

We conducted this allegation-based inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation. These
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer-processed data, to some extent, to satisfy our objective. We
confirmed the validity of such data, when appropriate, by reviewing source documents and
conducting interviews.

An exit conference was held on December 6, 2012.




                                                4
                                                                     IG Report No. INS-SR-13-01

                            CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

       1. What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

       2. What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

       3. What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

       4. What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

       5. Please include your name and telephone number so that we may contact you should we
          have any questions about your comments.


Name                                           Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                Office of Inspector General (IG-1)
                                      Department of Energy
                                     Washington, DC 20585

                                   ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of f Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
